                       ort




     STATEMENT OF ACCOUNTABILITY RECONCILIATION
   PROCEDURES FOR DEFENSE FINANCE AND ACCOUNTING
   SERVICE COLUMBUS CENTER, DISBURSING STATION 6551


Report Number 98-186                       August 14, 1998




             Office of the Inspector General
                 Department of Defense
  Additional Information    and Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 6048937 (DSN 6648937) or FAX (703) 6048932 or visit the Inspector
  General, DOD, Home Page at: www.dodig.osd.mil.

  Suggestions   for Future Audits

  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support Directorate
  at (703) 6048908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
  can also be mailed to:

                     OAIG-AUD (ATTN: APTS Audit Suggestions)
                     Inspector General, Department of Defense
                     400 Army Navy Drive (Room 801)
                     Arlington, VA 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-
  9098; by sending an electronic message to Hotline@dodig.osd.miI;   or by writing to
  the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The identity of
  each writer and caller is fi.dly protected.




Acronyms

DFAS                 Defense Finance and Accounting Service
GOALS                Government On-Line Accounting Link System
OPAC                 On-Line Payment and Collections
                               INSPECTOR     GENERAL
                              DEPARTMENT   OF DEFENSE
                                400 ARMY NAVY DRIVE
                              ARLINGTON, VIRGINIA 22202




                                                                           August 14, 1998




MEMORANDUM         FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                          SERVICE

SUBJECT:    Audit Report on Statement of Accountability Reconciliation Procedures     for
            Defense Finance and Accounting Service Columbus Center, Disbursing
            Station 655 1 (Report No. 98-l 86)


        We are providing this report for information and use. This audit was performed in
response to the Chief Financial Officers Act of 1990 and the Federal Financial
Management Act of 1994. We considered management comments on a draft of this report
in preparing the final report.

        Comments received on a draft of this report conformed to the requirements of
DOD Directive 7650.3 and left no unresolved issues. Therefore, no additional comments
are required.

          We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. Charles J. Richardson, at (703) 604-9582 (DSN 664-9582) e-
mail CRichardson@dodig.osd.mil,       or to Mr. Walter R. Loder Jr., at (703) 604-9534
(DSN 664-9534) e-mail WLoder@dodig.osd.mil.           See Appendix D for the report
distribution. The audit team members are listed inside the back cover.




                                          David K. Steensman
                                   Deputy Assistant Inspector General
                                              for Auditing
                           Offke of the Inspector General, DOD

Report No. 98-186                                                       August 14,1998
  (Project No. 7RF-2036)

        Statement of Accountability Reconciliation Procedures for
                 Defense Finance and Accounting Service
                Columbus Center, Disbursing Station 6551

                                  Executive Summary

      Introduction. This report is the first in a series of reports on the Department 97
      Fund Balance With Treasury Account for FY 1997. The audit was performed in
      response to the requirements of the Chief Financial Ofhcers Act of 1990 (Public
      Law 101-576) and the Federal Financial Management Act of 1994 (Public Law
       103-356). The Federal Financial Management Act requires DOD and other
      Government agencies to prepare consolidated financial statements for FY 1996
      and each succeeding year. Beginning in FY 1996, the Defense Finance and
      Accounting Service (DFAS) Indianapolis Center became responsible for preparing
      the financial statements for the Department 97 general fund appropriations.    The
      Department 97 Other Defense Organizations includes the financial information for
      44 Defense organizations and funds that receive Department 97 general fund
      appropriations. During FY 1997, the Other Defense Organizations were
      appropriated $39 billion, and their financial statements showed total assets of
      approximately $47 billion, of which approximately $3 1 billion is the Fund Balance
      With Treasury Account. The DFAS Columbus Center, Disbursing Directorate,
      Disbursing Station Symbol Number 6551 (Disbursing Station 6551) disburses
      Department 97 general funds and working capital funds. The Defense Logistics
      Agency is the largest customer of Disbursing Station 655 1. During FY 1997,
      Disbursing Station 655 1 reported net disbursements of $5.3 billion mainly on
      behalf of the Defense Logistics Agency, the Defense Commissary Agency, the
      DFAS, and the Defense Contract Audit Agency.

      Audit Objectives. The overall objective was to assess internal controls and
      compliance with laws and regulations. An additional objective was to evaluate the
      financial information submitted to the Department of the Treasury by DOD
      disbursing offices and actions taken by the Defense Finance and Accounting
      Service Centers to reconcile differences between the Department of the Treasury
      Government On-Line Accounting Link System and the DOD accounting records.
      This report covers financial information reported by Disbursing Station 655 1 and
      the differences reported by the Department of the Treasury. The remaining
      objectives will be addressed in subsequent reports.

      Audit Results. Disbursing Station 6551 needed to improve the accuracy of
      information reported to the Department of the Treasury. As a result of
      information received from DOD, the Department of the Treasury incorrectly
      reported unreconciled differences of $8 million (absolute value) in the Statement of
      Difference and unreconciled differences of $16 million
(absolute value) in Budget Clearing Account 97F3879. Management controls
were adequate as they applied to the objectives. See Appendix A for details on the
management control program.

Summary of Recommendations.          We recommend that the Director, DFAS
Columbus Center initiate a system change request to the Defense Disbursing
Analysis Reporting System to allow the transmission of adjustments in the
electronic Statement of Accountability report; and report the reconciling
adjustments to DFAS Indianapolis Center so the Statements of Difference and
Budget Clearing Account 97F3879 for the Disbursing Station 655 1 can be cleared.

Management Comments. The DFAS agreed to initiate a system change request
to the Defense Disbursing Analysis Reporting System, and to report reconciling
adjustments to the DFAS Indianapolis Center. See Part I for a discussion of the
management comments and Part III for the complete text of the comments.




                                     ii
Table of Contents

Executive Summary                                                   i

Part I - Audit Results
      Audit Background                                          2
      Audit Objectives                                          3
      Processing Reconciling Adjustments                        4

Part II - Additional Information
      Appendix A. Audit Process
        Scope and Methodology                                  10
        Management Control Program Review
      Appendix B. Summary of Prior Coverage                    ::
      Appendix C. Background on Treasury Records and Reports
      Appendix D. Report Distribution                          ;:

Part III - Management     Comments
      Defense Finance and Accounting Service Comments          20
Fart I - Audit Results
Audit Background
    Public Law 101-576, the Chief Financial Officers Act of 1990, as amended by
    Public Law 103-356, the Federal Financial Management Act of 1994, requires the
    annual preparation and audit of financial statements. The Chief Financial Officers
    Act also requires DOD and other Government agencies to prepare consolidated
    financial statements for FY 1996 and each succeeding year.

    The FY 1997 Other Defense Organizations Financial Statements. The
    consolidated DOD financial statements for FY 1997 include the financial
    information for a reporting entity entitled Other Defense Organizations, which
    includes 44 Defense organizations and funds that receive Department 97 general
    fund appropriations.   The Defense Finance and Accounting Service (DFAS)
    Indianapolis Center is responsible for preparing financial statements for Other
    Defense Organizations. In FY 1997, the Other Defense Organizations were
    appropriated $39 billion of Department 97 funds for the performance of their
    missions and functions. The FY 1997 Other Defense Organizations financial
    statements showed total assets of approximately $47 billion, of which
    approximately $3 1 billion was the Fund Balance With Treasury Account. The
    DFAS Columbus Center, Disbursing Directorate, Disbursing Station Symbol
    Number 655 1 (Disbursing Station 655 1) disburses Department 97 general funds
    and working capital funds. The Defense Logistics Agency is the largest customer
    of Disbursing Station 655 1. During FY 1997, Disbursing Station 655 1 reported
    net disbursements of $5.3 billion mainly on behalf of the Defense Logistics
    Agency, the Defense Commissary Agency, the DFAS, and the Defense Contract
    Audit Agency.

    Disbursing Stations. DOD has approximately 600 disbursing stations that are
    authorized to process payments and prepare Treasury checks and bonds and to
    initiate electronic fund transfers. These disbursing stations also collect and deposit
    funds to Treasury accounts and are required to prepare a monthly report,
    Statement of Accountability (SF- 1219), that summarizes information on
    disbursements and collections. Within DOD, SF-1219s are combined at three
    DFAS Centers; Disbursing Station 655 1 submits its SF-1219 information to the
    DFAS Indianapolis Center. The DFAS Centers then electronically submit a
    combined SF- 12 19 to the Department of the Treasury (the Treasury) using the
    Government On-Line Accounting Link System (GOALS) telecommunications
    network. Treasury records and reports are discussed in Appendix C.

    Government On-Line Accounting Link System. The GOALS is a contractor-
    owned and -operated telecommunications     network that allows the Treasury to
    receive financial information from agencies related to paying, collecting,
    accounting, and reporting functions. Through GOALS, agencies can transmit and
    receive accounting and financial data to accomplish interagency transactions and to
    submit reports to the Treasury.

    On-Line Payment and Collections. The On-Line Payment and Collections
    (OPAC) system is an application available to agencies through the GOALS
    network, It is used for interagency financial transactions, such as transferring
    payroll withholding for taxes and retirement to the Internal Revenue Service and



                                           2
     the Office of Personnel Management, respectively. The total for OPAC
     transactions (payments and collections) is reported on line 2.80 of the SF-1219,
     which records increases to the disbursing officers’ accountability.

     DOD Financial Management Regulation. DOD Regulation 7000.14-R, the
     “DOD Financial Management Regulation,” volume 5, chapter 19, “Disbursing
     Officer Accountability Reports, n May 1996 states a. . . every disbursing officer
     shall submit an SF-1219 each month for each Disbursing Station Symbol
     Number assigned whether or not any transactions occur or any accountable
     balance is involved. n The requirements for correcting an SF- 1219 are
     explained in paragraph 190507, which states, “. . . disbursing officers shall not
     submit corrected or amended SF-1219s under any circumstances. If adjustment
     action is necessary, the adjustment shall be made on the succeeding month’s
     SF-1219. n


Audit Objectives
     The overall objective was to assess internal controls and compliance with laws
     and regulations. An additional objective was to evaluate the financial
     information submitted to the Treasury by DOD disbursing offices and actions
     taken by the DFAS Centers to reconcile differences between the Treasury
     GOALS and the DOD accounting records. This report covers financial
     information reported by Disbursing Station 6551 and the differences reported by
     the Treasury. The remaining objectives will be addressed in subsequent reports.
     Appendix A discusses the scope and methodology and the management control
     program. Appendix B provides a summary of prior coverage related to the
     audit objectives.




                                         3
            Processing Reconciling Adjustments
            The DFAS Columbus Center, Disbursing Station 655 1, reported
            incorrect information to the Treasury. Specifically, Disbursing
            Station 6551 processed reconciling adjustments to the Statement of
            Accountability in the wrong month. This happened because the
            automated system used by Disbursing Station 655 1, the Defense
            Disbursing Analysis Reporting System, accepts Statement of
            Accountability transactions only for the current period and does not
            allow prior period adjustments. As a result, the Treasury incorrectly
            reported unreconciled differences of $8 million (absolute value) in the
            Statements of Difference and unreconciled differences of $16 million
            (absolute value) in Budget Clearing Account 97F3879 for items that
            were previously reconciled on Disbursing Station 6551 records.


Reconciliation Procedures
     Treasury Procedures. When the Treasury receives the combined SF-1219
     from the DFAS Indianapolis Center, the Treasury compares the amounts
     reported to the control totals. The Treasury uses these control totals to ensure
     the accuracy of information reported by disbursing stations. GOALS provides
     the Treasury with control totals for OPAC transactions by disbursing stations.
     Disbursing stations report their monthly OPAC activity on line 2.80 of the
     Statement of Accountability (SF-1219). If the GOALS control total differs
     from the SF-1219, the Treasury notifies the DFAS Indianapolis Center that the
     disbursing station may need to change what was reported. The DFAS
     Indianapolis Center receives this notification, a Statement of Difference, on
     microfiche approximately 6 weeks after the SF-1219 is filed. The information
     included in the Treasury microfiche is also available online through the
     GOALS.

     DFAS Indianapolis Center Procedures.          DFAS Indianapolis Center receives
     the Statements of Difference, on microfiche, for all Army and Defense agency-
     related disbursing stations that report to the Treasury. The DFAS Indianapolis
     Center converts the microfiche to paper copy and then sends the copy of the
     Statement of Difference to the individual disbursing stations notifying them of
     the difference. Each individual disbursing station is responsible for researching
     and correcting the identified differences.

     Disbursing Station 6551 Procedures. Disbursing Station 6551 does not wait
     for the paper copy of the Statement of Difference from DFAS Indianapolis
     Center before making required adjustments. Disbursing Station 6551 uses
     online access to GOALS to compare the OPAC activity recorded in GOALS to
     the amount reported on the SF-1219. Disbursing Station 6551 researches any
     difference and includes any reconciling adjustments on the next SF-1219
     processed. The adjustments are included on both the manually prepared
     SF-12 19 and the SF-12 19 that is electronically submitted to the DFAS
     Indianapolis Center to be combined with other disbursing stations’ information
     for transmittal to the Treasury.



                                          4
                                               Processing Reconciling Adjustments



Treasury Reporting
    The DFAS Columbus Center reported incorrect information to the Treasury.
    Specifically, Disbursing Station 6551 was not processing adjustments to
    line 2.80 of the SF-1219 in the correct month. During May, June, and July
    1997, the Treasury reported approximately $8 million of overstatements.
    Disbursing Station 6551 prepared reconciling adjustments for the differences;
    however, the Defense Disbursing Analysis Reporting System does not allow
    prior period adjustments. To overcome this problem, Disbursing Station 6551
    periodically notifies the DFAS Indianapolis Center by electronic mail when the
    SF-1219 contains a prior period adjustment. However, Disbursing Station 6551
    did not provide the electronic mail notification to the DFAS Indianapolis Center
    that the SF-1219 for June, July, or August contained prior period adjustments.

    Disbursing Station 6551 compared its SF-12 19 to the Treasury records of
    OPAC transactions in GOALS for May, June, and July 1997, and then
    manually prepared reconciling adjustments on the SF-1219 for the following
    month. The disbursing officer certified the manually prepared SF-12 19 for
    these months that show that the adjustments were made as required and were
    prepared according to the instructions in the DOD Financial Management
    Regulation. Disbursing Station 6551 made a prior period adjustment totaling
    $34,150 for May on the SF-1219 for June 1997, a prior period adjustment
    totaling $228,623 for June on the SF-1219 for July 1997, and finally, a prior
    period adjustment totaling $7,971,898 for July on the SF-1219 for August 1997.
    However, these reconciling adjustments were not reported in the correct month
    on the electronically submitted SF-1219 in the Defense Disbursing Analysis
    Reporting System. Therefore, the Defense Disbursing Analysis Reporting
    System did not accept the adjustments, and consequently, the Treasury records
    were not corrected


Defense Disbursing Analysis Reporting System
    The Defense Disbursing Analysis Reporting System, which is the automated
    system used to transmit SF-1219s to DFAS Indianapolis Center, does not allow
    prior period adjustments. It allows entries only in the current month. As a
    result, the prior period adjustment for May was reflected as a June transaction,
    the prior period adjustment for June was reflected as a July transaction, and the
    prior period adjustment for July was reflected as an August transaction. The
    bar graph depicts the prior period adjustment for each month and the effect on
    reconciliation efforts.




                                        5
Processing Reconciling   Adjustments




                                 Processing Reconciling         Adustments




                     June

                      July

                         $0      $2,000      $4,000    $6,000      $8,000
                                       Dollars (in thousands)

                 ) El Treasury Statement of Difference    131Prior Month Adjustment



      The reconciling adjustment for May was $34,150; however, the prior period
      adjustment for May was reflected as a June transaction, and the Statement of
      Difference for May remained at $34,150. The reconciling adjustment for June was
      $228,623; however, the prior period adjustment for June was reflected as a July
      transaction. Therefore, the Statement of Difference for June reflects a net
      difference of $194,473, which is the June reconciling adjustment less the May
      adjustment ($228,623 - 34,150). Likewise, the reconciling adjustment for July was
      $7,971,898; however, the prior period adjustment for July was reflected as an
      August transaction. Therefore, the Statement of Difference for July reflects a net
      difference of $7,743,275, which is the July reconciling adjustment less the June
      adjustment ($7,97 1,898 - 228,623). As a result, the adjusting entries prepared by
      Disbursing Station 6551 were not posted to the correct month in the Treasury
      database. The Treasury records were also not cleared, so they continued to show
      unreconciled differences.

      Officials in both the Accounting Directorate and the Disbursing Directorate at
      DFAS Columbus Center have stated that the Defense Disbursing Analysis
      Reporting System does not allow prior period adjustments. However, officials
      within the System Support Division are not aware of this problem with the Defense
      Disbursing Analysis Reporting System and have no plans to correct it.


Budget Clearing Account 97F3879

      Unreconciled differences from OPAC transactions are initially reported on a
      Statement of Difference, where they can remain for 6 months while awaiting
      reconciliation. After 6 months, any differences that are less than $5 million are
      transferred to Budget Clearing Account 97F3879, and any differences that exceed
      $5 million are retained on the Statement of Difference until cleared. For FY 1997,
      Budget Clearing Account 97F3879 contained transactions for 19 months with a
      net value of $44,000 and an absolute value of approximately $16 million. As of
      January 1998, the unreconciled difference for the May SF-12 19 ($34,150) was


                                             6
                                                  Processing Reconciling    Adjustments



    transferred to Budget Clearing Account 97F3879. The balance in Budget Clearing
    Account 97F3879, approximately $16 million absolute value, is the result of the
    problem with the Defense Disbursing Analysis Reporting System.


Conclusion
    The DOD Financial Management Regulation requires the Statement of
    Accountability to be filed monthly for each Disbursing Station, and further
    stipulates that this report cannot be corrected or amended. Any required
    adjustments to this report must be made on a report of a succeeding month.
    Because of this requirement, it is critical that any adjustments to the report are
    clearly identified to the applicable prior month; otherwise, the adjustments will not
    match the proper month and will not clear. The adjustments made by the DFAS
    Columbus Center, Disbursing Station 655 1 were not identified to the proper
    month on the electronic SF-1219. As a result, the Statements of Difference for
    disbursements did not clear.


Recommendations and Management Comments
    We recommend that the Director, Defense Finance and Accounting             Service
    Columbus Center:

           1. Initiate a system change request to the Defense Disbursing Analysis
    Reporting System to allow the transmission of adjustments in the electronic
    Statement of Accountability report (SF-1219).

    Management Comments. The DFAS concurred, stating that the DFAS is
    reviewing the Defense Disbursing Analysis Reporting System, and after
    determining what deficiencies exist, DFAS will take immediate action to correct
    them. The estimated completion date is by the end of Fiscal Year 1998.

             2. Report the reconciling adjustments to the Defense Finance and
    Accounting Service Indianapolis Center so that the Statements of Difference
    and Budget Clearing Account 97F3879 for Disbursing Station 6551 can be
    cleared.

    Management Comments. The DFAS concurred, stating that the DFAS
    Columbus Center, Disbursing Directorate is working to clear items that were
    charged to the Budget Clearing Account 97F3879 for Disbursing Station 655 1.
    The estimated completion date is by the end of Fiscal Year 1998.




                                          7
Part II - Additional   Information
Appendix A. Audit Process


Scope and Methodology

    We reviewed custodial records reflecting fiscal accountability for Disbursing
    Station 6551, which reported net disbursements of $5.3 billion in FY 1997. We
    compared the records of the Treasury to the records maintained by Disbursing
    Station 6551 at the DFAS Columbus Center. We judgmentally selected for
    review the monthly Statements of Difference for deposits and disbursements that
    were issued by the Treasury. We also judgmentally selected the internal records
    of the DFAS Columbus Center, which supported the transactions summarized in
    the Statement of Difference. We selected January and February 1997 for the
    Statements of Difference for deposits, which represented $0.3 billion of the
    reported $1.8 billion of total deposits for FY 1997. We selected May, June,
    and July 1997 for the Statements of Difference for disbursements, which
    represented $0.4 billion of the reported $1.2 billion of total OPAC transactions.
    We also reviewed the associated budget clearing accounts F3878, F3879, and
    F3880, which receive the unreconciled balances after 6 months. We
    interviewed operating personnel about the reconciliation process for the
    Statements of Difference.

    DOD-wide Corporate Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Department of Defense has established 6 DOD-wide corporate level performance
    objectives and 14 goals for meeting these objectives. This report pertains to
    achievement of the following objective and goal.

           Objective:    Fundamentally reengineer the Department and achieve a
           2 1st century infrastructure. Goal: Reduce costs while maintaining
           required military capabilities across all DOD mission areas. (DOD-~)

    DOD Functional Area Reform Goals.         Most major DOD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and
    goal.

           Financial Management     Functional Area. Objective: Eliminate
           problem disbursements.   Goal: Reduce problem disbursements by over
           60 percent. (FM-3.1)

    General Accounting Office High Risk Area.        The General Accounting Office
    has identified several high risk areas in the DOD. This report provides coverage
    of the Defense Financial Management high risk area.

    Use of Computer-Processed    Data. To achieve the audit objective, we used
    computer-processed data in the DFAS Columbus Center Defense Disbursing
    Analysis Reporting System and the SRD-1 subsystem databases. We did not




                                       10
                                                        Appendix A. Audit Process



    establish the reliability of the data because the data were used for comparison
    and informational purposes. However, the data we used were satisfactory for
    the purposes of our audit.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from August 1997 through February 1998. The audit was performed in
    accordance with auditing standards issued by the Comptroller General of the
    United States, as implemented by the Inspector General, DOD. We included
    tests of management controls considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DOD; the Department of the Treasury, in Hyattsville,
    Maryland; and the U.S. General Accounting Office, Washington, D.C. Further
    details are available on request.


Management Control Program Review
    DOD Directive 5010.38, “Management Control Program,” August 26, 1996,
    requires DOD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and also to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We performed
    general reviews of the adequacy of the management controls and procedures at
    the DFAS Columbus Center over the reconciliation process for the Statements
    of Difference and budget clearing accounts. Specifically, we reviewed the
    DFAS Columbus Center procedures to identify and track transactions listed as
    discrepancies by the Treasury. We did not assess the adequacy of
    management’s self-evaluation of those controls because we did not identify a
    material weakness.

    Adequacy of the Management    Controls. The specific DFAS Columbus
    Center management controls we reviewed were adequate in that we identified no
    material management control weaknesses.




                                        11
Appendix B. Summary of Prior Coverage

    During the last 5 years, the Office of the Inspector General, DOD, issued two
    reports on DFAS Columbus Center regarding the Fund Balance With Treasury
    account for General Fund appropriations. The DFAS Columbus Center, Office
    of Internal Review issued one report on the suspense accounts.


Inspector General, DOD

    Inspector General, DOD, Report No. 97-073, “Reliability of the FY 1995
    Financial Statements for the Defense Logistics Agency General Fund,”
    January 15, 1997. The DFAS Columbus Center did not prepare reliable
    FY 1995 financial statements for three Defense Logistics Agency General Fund
    appropriations. Specifically, supporting notes to the financial statements did not
    provide full disclosure for one asset account, three account balances were
    questionable, and four account balances contained recording errors. The report
    recommended that the DFAS Columbus Center disclose material differences
    between the summary disbursement and collection reports to the Treasury; use
    general ledger accounts as data sources for annual financial statements, and fully
    and clearly disclose adjustments to the account balances; and perform quality
    control reviews of the annual financial statements. The DFAS Columbus
    Center established procedures to ensure that adjustments made from the
    reconciliation process are disclosed in the footnotes to the annual financial
    statements. DFAS further stated that the completed financial statements are
    randomly selected for detailed reviews.

    Inspector General, DOD, Report No. 94-048, YJncleared Transactions          By
    and For Others,” March 2,1994. The report states that increased
    management oversight was needed to eliminate excessive delays in clearing
    transactions and to reduce net undistributed disbursements valued at about
    $34.6 billion as of January 3 1, 1993. The DFAS Centers took limited action to
    research and resolve in&a-Service disbursements that remained uncleared for
    extended periods, and actions taken to resolve cross-disbursing transactions
    were less than fully effective. The report recommended that the Comptroller,
    DOD (now the Under Secretary of Defense [Comptroller]) include in the “DOD
    Financial Management Regulation” detailed guidance for clearing transactions
    and reducing undistributed disbursements. The Deputy Comptroller
    (Management Systems) concurred with the findings and recommendations.




                                        12
                                           Appendix B. Summary       of Prior Coverage




B$;g       Finance and Accounting Service Office of Internal

       Defense Finance and Accounting Service Columbus Center, Internal Review
       Report No. 96-A-670-UA-002, “Defense Finance and Accounting Service-
       wide Audit of Recertified Checks,” April 24, 1997. The report states that
       recertified check transactions were not being charged to the original or similar
       appropriation. The report also states that checks are not being properly
       processed or documented, transactions are not being cleared accurately or
       timely, and appropriate review and reconciliation of recertified check balances
       are not being performed. The report recommended that management implement
       and enforce procedural controls to charge recertified check debits and credits to
       the original or similar appropriation. In addition, the report recommended the
       development of a review guide to be used by the Disbursing Directorate in
       performing future quality reviews of recertified checks. Management concurred
       with the findings and recommendations.




                                           13
Appendix C. Background                        on Treasury Records
and Reports


Treasury Records and Reports
    Flow of Information. The flow chart depicts how the disbursing stations process
    their transactions through the OPAC application of GOALS, which gives the
    Treasury its control totals. Then, Army disbursing stations file their SF-1219 with
    the DFAS Indianapolis Center, creating a combined SF-12 19 that the DFAS
    Indianapolis Center forwards to the Treasury. The Treasury compares the
    SF-1219 amount to the control totals from GOALS and sends a Statement of
    Difference to the DFAS Indianapolis Center if the amounts do not agree. A
    reconciling adjustment is then made on an SF-1219 for a subsequent month.



       Flow of Information for Interagency
      Disbursement, Statement of Difference




                                         14
                 Appendix C. Background       on Treasury Records and Reports



Statement of Accountability.     The Statement of Accountability (SF-1219) is
the report required by the Treasury for use by Government agencies that have
the authority to disburse checks on behalf of the U.S. Treasury. The SF-1219
is a monthly report submitted to the Treasury to establish the disbursing
officer’s accountability for funds; it shows the reconciliation of the deposits and
disbursements (checks issued) to the cash on hand. Disbursing Station 6551
submits its SF-1219 to DFAS Indianapolis Center, where it is combined with
SF-1219s from other disbursing stations and is forwarded to the Treasury.

Statement of Difference.    When an agency’s SF-1219 is submitted, the
Treasury compares the amount reported on line 2.80 of the SF-1219 to its
control totals from GOALS. If the amount reported on line 2.80 differs from
the control totals from GOALS, the Treasury will send a Statement of
Difference for disbursements to the disbursing office to be reconciled. The
Statement of Difference is the Treasury’s official notification that a change
might be necessary in agency reporting.

Budget Clearing Account.       Budget Clearing Accounts are established to
temporarily report amounts for which the proper account has not been
identified. Each agency is responsible for determining the correct transaction
classification as soon as possible, reporting the transaction to the proper
account, and adjusting the previous entry. When unreconciled OPAC
transactions of less than $5 million have been reported on a Statement of
Difference for 6 months, the Treasury assigns these transactions to an F3879
“Undistributed” account. Transactions that exceed $5 million remain on the
Statement of Difference until cleared.




                                     15
Appendix          D. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program and Budget)
Assistant Secretary of Defense (Public Affairs)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Off&




                                          16
                                                   Appendix D. Report Distribution




Non-Defense Federal Organizations                 and Individuals       (cont’d)

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on National Security, Committee on Appropriations
House Committee on Government Reform and Oversight
House Subcommittee on Government Management, Information, and Technology,
   Committee on Government Reform and Oversight
House Subcommittee on National Security, International Affairs, and Criminal Justice,
   Committee on Government Reform and Oversight
House Committee on National Security




                                          17
Part III - Management Comments
Defense Finance and Accounting Service
Comments

               DEFENSE      FINANCE    AND      ACCOUNTING        SERVICE

                             1931 JEFFERSON     DAVIS   HIGWWAV
                               ARLINGTON.     VA 222-52s    8                 a4   171998




                   WRDIRECX'fJR, FINANC!XANDACCOUNTINGDIRBCIY)RATB,
                         OFPICR OF THE INSPBCTOR GRNRRAL, DEPARTMENT OF
                         DEFENSE


    SUBJECT:    Audit Report on Statement of Accountability
                Reconciliation Procedures for Defense Finance and
                Accounting Service Columbus Center, Disbursing
                Station 6551 (Project No. 'IRP-2036)


          Our cOrnDentsto the subject report are attached.                  My point of

    contact is Mr.    Ron   Boothe, (703) 607-1377.




    Attachment :
    As stated




                                        20
                           Defense Finance and Accounting Service Comments




   Audit Report on Statement of AccountabilityReconciliation
 Procedures for Defense Finance and Accounting Service Columbus
     Center, Diebursing Station 6551 (ProjectNo. 7RP-2036)

Recomnendations for Corrective Action:

We reccmnend that the Director, Defense   Finance and Accounting
Service Columbus Center:

     1.  Initiate a system change request to the Defense
Disbursing Analysis Reporting System to allow the transmission of
adjustments in the electronic Statement of Accountability report
(SF-1219).

     Management conunent. Concur. The DFAS is currently
reviewing the May 1998 processes in the Defense Disbursing
Analysis Reporting System (DDARS) that allows for the
transmission of adjustments in the electronic SF-1219. In
June 1998, after determining what deficiencies exist, we will
take immediate action to correct them.

Estimated complete date: June 30, 1998.

     2. Report the reconciling adjustments to the Defense
Finance and Accounting Service Indianapolis Center so that the
Statements of Difference and Budget Clearing Account 9783879 for
Disbursing Station 6551 can be cleared.

     Management comment. Concur.   The DFAS-CO Disbursing
Directorate has primary responsibility for the prior month OPAC
adjustments that have been charged against the Budget Clearing
Account 97B3879 Ear Disbursing Station Symbol Number (DSSN) 6551.
On receiving a Statement of Difference from the U.S. Treasury,
the DFAS-CO Disbursing Directorate identifies the needed
adjustment and notifies the DFAS-CO Accounting Directorate. The
DFAS-CO Accounting Directorate initiates a SF 1081 for the
adjustment and reports the reconciling adjustment to the DFAS
Indianapolis Center so that the Statements of Difference and
Budget Clearing Account 97B3879 for DSSW 6551 can be cleared.
The DPAS-CO Disbursing Directorate is working to clear items that
have been charged to the Budget Clearing Account 97P3879 for
DSSN 6551.

Estimated completion date: June 30, 1998.

                                                        Attachment




                                 21
Audit Team Members


The Finance and Accounting Directorate, Office of the Assistant Inspector
General for Auditing, DOD, produced this report.


F. Jay Lane
Salvatore D. Guli
Charles J. Richardson
Walt R. Loder Jr.
Gerald L. Werking
Fred R. McComas
Charles R. Thompson
